GR-50-98-034
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Violence Against Women Discretionary Cooperative Agreements
Administered by Minnesota Program Development, Inc., Duluth, Minnesota
Cooperative Agreements 95-WT-NX-KOO1 and 97-WT-VX-K006
 
Audit Report Number GR-50-98-034
September 14, 1998
 
 
EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an
audit of two Violence Against Women Discretionary Cooperative Agreements administered by
Minnesota Program Development, Inc. (MPDI), Duluth, Minnesota for the period of September
1, 1995 through March 31, 1998. The MPDI received $1,320,000 for the STOP Violence Against
Indian Women Technical Assistance Project (TA), and $904,382 for the Technical Assistance
- Grants to Encourage Arrest Policies Program (ARREST).

In brief, our audit determined the following:



MPDI paid $3,100 in excess of the approved consultant daily rate specified in the ARREST
      Awards Special Conditions.




Progress Reports were not submitted or were submitted late.


The details of our audit are contained in the Findings and Recommendations section of
this report. Our audit scope and methodology are described in Appendix I.
#####